   May 18, 2006




Information Technology
Management
Acquisition of the Armed Forces
Health Longitudinal Technology
Application
(D-2006-089)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AHLTA                 Armed Forces Health Longitudinal Technology Application
CHCS II               Composite Health Care System II
CITPO                 Clinical Information Technology Program Office
COTS                  Commercial Off-The-Shelf
GAO                   Government Accountability Office
IG                    Inspector General
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                             May 18,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE
                 (HEALTH AFFAIRS)


SUBJECT: Report on the Acquisition of the Armed Forces Health Longitudinal
         Technology Application (Report No. D-2006-089)

      We are providing this report for review and comment. We considered
management comments on a draR of this report when preparing the final report.
         DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Assistant Secretary of Defense (Health Affairs) comments were partially responsive
in that they did not provide a date for completion of planned actions. Therefore, we
request additional comments on all recommendations to include an estimated date of
completion by June 15,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudATM@,dodin.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Jacqueline L. Wicecarver at (703) 604-9077 (DSN 664-9077) or Mr. Sean A.
Davis at (703) 604-9049 (DSN 664-9049). The team members are listed inside the back
cover. See Appendix E for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:
                                                             a      "


                            6LLp&*
                                           Richard B. Jolliffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2006-089                                                      May 18, 2006
   (Project No. D2005-D000AS-0117.000)

                    Acquisition of the Armed Forces Health
                     Longitudinal Technology Application

                                 Executive Summary

Who Should Read This Report and Why? Healthcare providers; warfighters; Armed
Forces Health Longitudinal Technology Application program officials; and individuals
involved in the requirements development, testing, and oversight of the Armed Forces
Health Longitudinal Technology Application should read this report. This report
discusses the proper identification of the risks associated with the integration of
commercial off-the-shelf software, as well as the program manager’s emphasis on the use
of risk management, lessons learned, and performance monitoring programs for the
Armed Forces Health Longitudinal Technology Application program.

Background. On November 21, 2005, the Assistant Secretary of Defense (Health
Affairs) changed the name of the Composite Health Care System II to the Armed Forces
Health Longitudinal Technology Application. The Armed Forces Health Longitudinal
Technology Application is a medical and dental clinical information system that will
generate and maintain a comprehensive, lifelong, computer-based patient record for
every soldier, sailor, airman, and marine; their family members; and others entitled to
DoD military health care. The Armed Forces Health Longitudinal Technology
Application program is expected to support 9.2 million beneficiaries. As of September
30, 2005, there were 7.01 million patients with records on-line at 51 Medical Treatment
Facilities. The initial program provides support capabilities in the outpatient arena.
Currently, the Armed Forces Health Longitudinal Technology Application program
management office is planning for the development of capabilities for inpatient care. The
estimated cost of the entire program is just over $5 billion.

Results. Although the Armed Forces Health Longitudinal Technology Application
program management office is using risk mitigation techniques such as risk management,
lessons learned, and performance monitoring, the program remains at high risk because
of the complexities of integrating commercial off-the-shelf software into the existing
Armed Forces Health Longitudinal Technology Application program. At the time of our
initial review in September 2005, the program management office had not identified any
mitigation strategies to reduce and control risk. Additionally, current strategies are not
sufficient to mitigate the commercial off-the-shelf risk. As a result, the Armed Forces
Health Longitudinal Technology Application program is vulnerable to continued
increases in cost, extended schedules for implementation, and unrealized goals in
performance from underestimating the difficulties of integrating commercial off-the-shelf
products. See the Finding section of the report for detailed recommendations. The
management controls that we reviewed were effective in that we did not identify any
material management control weakness.
Management Comments and Audit Response. The Assistant Secretary of Defense
(Health Affairs) concurred with the draft recommendations to provide documentation to
support assigned risks, provide justification and an implementation plan for the high risk
assigned to Block III, and to develop additional and more robust mitigation strategies
associated with commercial off-the-shelf products. Although partially responsive, the
comments did not provide estimated completion dates for the planned actions.

We request that the Assistant Secretary of Defense (Health Affairs) provide comments on
the final report by June 15, 2006. A discussion of the management comments is in the
Audit Results section of the report, and the complete text is in the Management
Comments section.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Managers’ Internal Control Program                                      3

Finding
     Classification of Commercial Off-The-Shelf Risk                    5

Appendixes
     A. Scope and Methodology                                          14
         Prior Coverage                                                16
     B. Armed Forces Health Longitudinal Technology Application
          Acquisition Strategy                                         17
     C. Armed Forces Health Longitudinal Technology Application
          Acquisition Program Baselines                                18
     D. Armed Forces Health Longitudinal Technology Application Risk
          Management Reports                                           19
     E. Report Distribution                                            26

Management Comments
     Office of the Assistance Secretary of Defense (Health Affairs)    29
Background
            On November 21, 2005, the Assistant Secretary of Defense (Health Affairs)
            changed the name of the Composite Health Care System II (CHCS II) to the
            Armed Forces Health Longitudinal Technology Application (AHLTA). AHLTA
            is a medical and dental clinical information system. The system will generate and
            maintain a comprehensive, lifelong, computer-based patient record for every
            soldier, sailor, airman, and marine; their family members; and others entitled to
            DoD military health care. The computer-based patient record will provide real-
            time access to individual and population health care information for health care
            providers to make informed, definitive decisions on the health care of members of
            the Armed Forces assigned worldwide, as well as those members deployed as part
            of contingency operations at home and abroad. The system will provide the
            capability to document patient medical care and exposure to different
            environmental or occupational hazards, and to retrieve lifelong medical records,
            dental care, and immunization status. These electronic records will allow for
            patient illness trend surveillance, which will help detect and prevent illness.

            System Description. AHLTA is expected to support 9.2 million beneficiaries
            with more than 132,500 military and civilian medical personnel providing
            medical treatment at 70 inpatient facilities and 828 medical and dental clinics. As
            of September 30, 2005, there were 7.01 million patients with records on-line at
            51 Medical Treatment Facilities. Currently, the AHLTA Program Management
            Office is planning for the development of capabilities for inpatient care. In the
            future, the system will interface with the Department of Veterans Affairs’
            HealtheVet-VistA medical system.

            Acquisition Strategy. The April 2005 Acquisition Strategy stated that AHLTA
            is an Acquisition Category IAM,1 automated information system. The system
            builds on capabilities of existing systems, phasing in their functions over time,
            while adding new capabilities to meet mission requirements. AHLTA initially
            provides support capabilities in the outpatient arena, while the mature system will
            extend those capabilities into the inpatient arena. The ultimate goal is to integrate
            all legacy CHCS clinical functions, as well as the functions of other clinical
            applications, into AHLTA. In order to conform to the principles of evolutionary
            acquisition, the system is designed to accommodate changes and facilitate the
            integration of future systems and technology, including the integration of
            commercial off-the-shelf (COTS) products.

            Current Block Functions. AHLTA will gather, store, and transmit computerized
            information about a patient’s lifetime health status and health care. This
            application enables the rapid access and transfer of relevant patient information
            for regional and remote treatment of injuries and illnesses. AHLTA will also
            support patient referrals to, and consultations with, specialists within a regional

1
    An Acquisition Category IAM is a major automated information system that is estimated to require
    program costs in any single year in excess of $32 million (FY 2000 constant dollars), total program costs
    in excess of $126 million (FY 2000 constant dollars), or total life-cycle costs in excess of $378 million
    (FY 2000 constant dollars), for which the Milestone Decision Authority is the Assistant Secretary
    Defense (Networks and Information Integration/DoD Chief Information Officer).



                                                       1
           area or at distant locations. When fully operational, the computer-based patient
           record will provide a paperless, filmless health care record that will be a
           confidential and comprehensive record of care for the full continuum of theater
           and peacetime care. The computer-based patient record will also provide links to
           external knowledge sources, interconnect network providers, and will provide
           clinical decision support and rationale for care rendered. For the first time, the
           computer-based patient record will give health care providers instant access to a
           continuous and coherent chronology of the health care history of each of their
           patients.

           Schedule Delay. The AHLTA Full Operational Capability Decision has been
           delayed by 4 years because of Block 1 performance issues and the Block 2 Dental
           Application having to be redesigned. In April 2004, Block 1 was not meeting the
           6-second system performance requirement for patient data retrieval and response
           to user input that are included in the October 2002 operational requirement
           document. The performance problems led to the Navy and the Air Force stopping
           deployment of AHLTA at their facilities until these performance issues were
           resolved. Based on an analysis prepared by the Clinical Information Technology
           Program Office (CITPO),2 the extreme performance degradation during this time
           was associated with database Input/Output issues that were eventually corrected
           with upgrades to the software and hardware. In addition to the performance issues
           causing schedule delays to the Full Operational Capability, issues with the Dental
           Application led to schedule delays in fielding Block 2. The performance
           problems in Block 1 also caused a delay in the acquisition of the COTS products
           needed for Block 3 capability. Appendix C shows a comparison of the three
           AHLTA Acquisition Program baselines.

           Life-Cycle Cost Increase. The estimated program cost for AHLTA has
           increased by approximately $1 billion (from $4.023 billion to $5.019 billion) due
           to the original life cycle being extended by 3 years, from FY 2018 to FY 2021.
           The extension of 3 years being added to the life cycle was caused by the system
           performance issues during Block 1, which led to a delay in Block 2 Operational
           Test and Evaluation and delayed the Block 2 Milestone C decision. Additionally,
           a new Milestone B date was required for Block 3 because of the delay in
           acquiring the commercial products needed for the Block 3 capabilities.




2
    The Clinical Information Technology Program Office, an office within the Office of the Assistant
    Secretary of Defense (Health Affairs), manages AHLTA.



                                                      2
Objectives
    The audit was announced on January 25, 2005, with the objective to review
    AHLTA budgeting, accounting, performance, and user satisfaction. In
    April 2005, the audit was re-scoped to review AHLTA program requirements,
    Clinger-Cohen compliance, and management controls. The re-scoped audit
    objective was to evaluate program requirements, the related acquisition strategy,
    and system testing to determine whether the system was being implemented to
    meet cost, schedule, and performance requirements. We also evaluated
    management controls as they relate to AHLTA. See Appendix A for a discussion
    of the scope and methodology and for information on prior audit coverage related
    to the objectives.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    Management Control Program documentation as it related to AHLTA to
    accomplish our objectives. The objective of our audit was focused on system
    requirements, Clinger-Cohen compliance, and the Management Control Program
    for AHLTA.

    Adequacy of Management Controls. We found no weaknesses in the
    Management Control Program for the documents we reviewed.

    Adequacy of Management’s Self-Evaluation. We did not discuss the adequacy
    of management’s self-evaluation because we did not find any management control
    weaknesses for program requirements and Clinger-Cohen compliance, which
    covered the objectives of our re-scoped audit. The AHLTA management controls
    were included in DoD Inspector General (IG) Report No. D2006-003, “Security
    Controls Over Selected Military Health System Corporate Databases,” October 7,
    2005. That report stated, “. . . TMA [TRICARE Management Activity] uses a
    standard vulnerability assessment form to evaluate all assessable units in the
    program offices. That assessment form is used to evaluate a range of assessable
    units . . . [but] does not provide detailed questions for each assessable unit and is
    not tailored to individual subject areas . . ..” The report also stated,

                   Expansion of the MCP [Management Control Program] self-
                   assessment at the Navy, Air Force, Army, and TRICARE
                   Management Activity by incorporating specific electronic,
                   physical, and personnel controls would assist activities in
                   complying with DoD guidance. In addition, a comprehensive




                                           3
               self assessment would provide additional assurance that the
               programs are operating as intended.

The report recommended that the Assistant Secretary of Defense (Health
Affairs) . . . include tests for electronic, physical, and personnel controls in its
Management Control Plans to ensure compliance with DoD Regulation 5200.2-R,
“Personnel Security Program,” January 1987, and DoD Instruction 8500.2,
“Information Assurance Implementation,” February 6, 2003. TRICARE
Management Activity concurred with the recommendation.




                                        4
           Classification of Commercial
           Off-The-Shelf Risk
           Although the AHLTA Program Management Office used risk mitigation
           techniques such as risk management, lessons learned, and performance
           monitoring, the program remains at high risk because of the complexities
           of integrating COTS software into the existing AHLTA program.
           Additionally, at the time of our initial review in September 2005, the
           program management office had not identified any mitigation strategies to
           reduce and control program risk. Current mitigation strategies are
           inadequate. As a result, the AHLTA program is vulnerable to continued
           increases in cost, extended schedules for implementation, and unrealized
           goals in performance from underestimating the difficulties of integrating
           COTS products.


Mitigation Techniques
    The AHLTA Program Manager uses risk management, lessons learned, and
    performance monitoring programs to mitigate cost, schedule, and performance
    risks. A risk management program is used to identify, analyze, mitigate, and
    control risks before they become problems. Additionally, the program
    management office uses lessons learned to identify best practices or positive
    experiences from resolving past problems. Finally, the program management
    office uses benchmark testing and end-to-end performance measurement to
    monitor systems performance.

    Risk Management. The AHLTA Program Manager uses a risk management
    program in order to mitigate performance issues and user dissatisfaction, and
    focuses on managing risks throughout the software acquisition life cycle. The
    AHLTA risk management process is defined in the “CITPO Risk Management
    Plan,” September 20, 2004, which provides guidance on identifying, analyzing,
    mitigating, and controlling risks before they become problems. The CITPO Risk
    Management Database documents CITPO program risks.

    Lessons Learned. The AHLTA Program Manager uses lessons learned to
    mitigate performance issues and user dissatisfaction. The CITPO identifies
    lessons learned as resolved problems, best practices, or positive experiences. The
    CITPO lessons learned database is the central knowledge repository for CITPO
    lessons learned. Lessons are captured on standardized forms and submitted by
    subject matter experts. In addition, Lessons Learned Facilitators and Directors
    identify best practices and industry standards on a regular basis.

    Performance Monitoring. The AHLTA Program Manager uses a performance
    monitoring program in order to mitigate performance issues and user
    dissatisfaction. The AHLTA Program Management Office uses benchmark
    testing to establish key lessons learned, tools, and processes from the initial test
    cycle that can be applied to future testing. It also uses end-to-end performance



                                          5
    measurement to detect performance threshold violations, to analyze and view
    historical trends, and to isolate and remediate performance problems.


Commercial Off-The-Shelf Integration
    The AHLTA program remains at high risk because of its reliance on COTS to
    fully satisfy the requirements of the program. To accomplish the requirements for
    Block 1 of the AHLTA system, the AHLTA Program Management Office
    selected and procured COTS products. These products formed the core of the
    systems functions that will be used in all blocks. The AHLTA Program
    Management Office did not acquire any additional COTS products to fulfill the
    requirements of Block 2. However, the majority of AHLTA functions resides in
    Block 3, which involves the integration of COTS products. Specifically, the
    Block 3 Draft Capability Development Document requires that “the system shall
    provide an order entry, results documentation, and results retrieval capability for
    pharmacy, laboratory, and radiology.” These capabilities will replace the legacy
    system capabilities through the integration of COTS products. Additionally, the
    April 2005 Block 3 Acquisition Strategy states that COTS products will be
    acquired and integrated into AHLTA to fulfill the majority of the critical
    requirements capabilities. Therefore, the operational effectiveness of Block 3,
    and thus the system as a whole, relies on the successful integration of COTS
    products.


Risk Management
    The AHLTA risk management process is a six-phase process in which risks are
    identified, analyzed, planned, tracked, controlled, and documented and
    communicated. Management action is determined based on the priority value of
    the risk. Risks are prioritized based on the probability the risk will occur and the
    impact the risk will have on program cost, schedule, and performance if the risk
    does occur. The AHLTA Program Management Office reassesses risk priority
    levels when significant changes to a risk occurs. Risk management officials
    within the program office review open risks to assess changing conditions and
    identify significant changes in status. Program officials are provided with routine
    risk status reports during project and team meetings. The risk management
    officials use the risk status reports to decide whether the risk mitigation plan
    needs to be modified, the risk should be closed, a contingency plan should be
    invoked, or tracking should continue.

    The table shows the CITPO Risk Evaluation Matrix, which is used to assign a
    risk’s priority value. The values 1 through 5 identify the level of risk and thus,
    the amount of management action required to mitigate the risk.

           •   Priority Value 1 risks require immediate management action and
               mitigation action within 3 months.




                                          6
                    •   Priority Value 2 risks do not require immediate action and are tracked3
                        by management.

                    •   Priority Value 3 risks are watched4 by management.

                    •   Priority Value 4 risks require monitoring but problems are not
                        anticipated.

                    •   Priority Value 5 risks do not require action beyond normal
                        management attention.

                                      CITPO Risk Evaluation Matrix

                                                    Probability

                                                    HIGH             MEDIUM                 LOW

                                               Occurrence Is       Occurrence Is       Occurrence Is
                                                 Assured             Possible            Unlikely


                                HIGH                HIGH               HIGH               MEDIUM

                             Significant               1                  2                    3
                               Impact
             Impact
                             MEDIUM                 HIGH             MEDIUM                 LOW

                              Moderate                 2                  3                    4
                               Impact


                                LOW              MEDIUM                 LOW                 LOW

                             Little or No              3                  4                    5
                               Impact



           COTS Integration Risks. The AHLTA Program Management Office considers
           the integration of COTS products to be a medium risk. The program office


3
    The “CITPO Risk Management Plan,” September 20, 2004, defines “tracked” as the fourth phase of the
    CITPO Risk Management Process. During this phase, risk data is collected and compiled so that it can be
    analyzed for trends.
4
    The “CITPO Risk Management Plan,” September 20, 2004, defines “watched” as “a mitigation approach
    where management monitors a risk and its attributes for significant change.”



                                                      7
           identified a risk5 associated with COTS integration. The risk states that there is a
           “potential concern that the complexity of the COTS integration may result in
           [program] costs being understated.” The program office assigned this risk at
           Value 3, which indicates the risk has one of the following: an unlikely
           probability of occurring and a significant impact to cost, a possibility of occurring
           and a moderate impact to cost, or an assured probability of occurring and little or
           no impact to cost. The AHLTA April 2005 Acquisition Strategy states COTS
           products will fulfill the majority of the critical requirements capabilities.
           Therefore, we consider this risk to be improperly prioritized because AHLTA
           success and full deployment relies heavily on the successful integration of COTS.

           Reprioritize COTS Integration Risk. The AHLTA Program Management
           Office should increase the priority value of the COTS integration risk from
           Priority Value 3 to Priority Value 2. Prior DoD IG audit reports as well as DoD
           and industry lessons learned on the use and integration of COTS indicate that
           when the integration of COTS is more complex than planned, the impact to cost,
           schedule, and performance is significant.

                   Prior DoD IG Audit Reports. DoD IG Report No. D-2002-124,
           “Allegations to the Defense Hotline on the Management of the Defense Travel
           System,” July 1, 2002, states that the Defense Travel System Project Management
           Office underestimated the complexity of integrating COTS products. The
           Defense Travel System Project Management Office was required to do extensive
           developmental work. As a result, the system was not deployed on schedule and
           approximately $7.5 million was spent unnecessarily in order to accommodate the
           schedule delay. Another example of the complexity of integrating COTS
           products and the effect on cost is cited in DoD IG Report No. D-2002-123,
           “Acquisition and Clinger-Cohen Act Certification of the Defense Integrated
           Military Human Resources System,” June 28, 2002. The Defense Integrated
           Military Human Resources System Program Manager expected the COTS
           software would require 10 to 20 percent modification. The report states that prior
           DoD experience with COTS products indicated that it may be unreasonable to
           expect to meet 80 to 90 percent of the required functionality with an “off-the-
           shelf” application. As a result, the Air Force and Navy were required to perform
           extensive modifications to achieve the required functionality.

                   DoD and Industry Lessons Learned. According to the Software
           Engineering Institute’s study entitled “Commercial Item Acquisition:
           Considerations and Lessons Learned,” June 26, 2000, the integration of COTS is
           more challenging than developing a custom capability. Therefore, increased
           management oversight is fundamental to guarantee the success of the integration.
           According to the lessons learned guidance, integrating COTS requires extensive
           expertise. A program management office must not assume the commercial
           product will be integrated into the system with minimal effort. The assumption
           could result in user dissatisfaction and schedule and cost overruns. The guidance
5
    The risk associated with COTS integration is identified in Risk Management Report 2005-020, October 3,
    2005. The audit team focused on Risk Management Report 2005-020 because we considered the other
    risk management reports to be properly prioritized. A Risk Management Report is a printout from the
    CITPO Risk Management Database that identifies the risk, the impact of the risk, priority level of the
    risk, general comments, responsible personnel, and risk mitigation summaries. See Appendix D for Risk
    Management Report 2005-020.



                                                     8
    also states that an incomplete evaluation of commercial items can affect program
    planning in unexpected ways. Specifically, vendor deficiencies or new versions
    of the product can delay the schedule and increase program costs.

    The AHLTA Program Management Office must also be aware of the affect on
    cost if the commercial products become obsolete or require new versions or
    upgrades.

    Mitigation Strategies. According to Risk Management Report ID 2005-020,
    “COTS Integration,” October 3, 2005, the Program Management Office did not
    have a mitigation strategy associated with the identified COTS integration risk.
    The CITPO Risk Management Plan states risk information should be translated
    into decisions and both present and future mitigation actions. The CITPO Risk
    Management Plan states these actions should then be implemented. Mitigation
    strategies are used to reduce risk by either reducing the impact or the probability,
    or both, of the risk. The program management office stated that it was evaluating
    mitigation strategies. The lack of a mitigation strategy could potentially increase
    program life-cycle costs, schedule, and performance.


AHLTA Program Management Office Response to Discussion
  Draft
    In response to a discussion draft of this report, the AHLTA Program Management
    Office staff commented that we were incorrect in stating that they had not
    developed any mitigation strategies associated with COTS integration.
    Specifically, they responded, “CITPO has identified COTS integration as a
    medium level program risk and developed corresponding mitigation strategies.”
    Additionally, they suggested that our recommendation could be changed to,
    “Develop additional, more robust mitigation strategies to further reduce and
    control this risk.” In response to our request for additional information to support
    their statement, the program office staff provided an updated copy of their COTS
    Integration Risk Management Report, March 2, 2006, which showed that on
    September 28, 2005, the project officer approved opening two mitigation
    strategies identified by the CHCS II Project Team. Appendix D contains the
    October 3, 2005, and March 2, 2006, Risk Management Reports.

    Supporting Documentation for Mitigation Strategies. The Risk Management
    Report is the only documentation provided by AHLTA to support its position that
    it had developed two mitigation strategies to address the COTS integration risk.
    The stated mitigation strategies, below, are not sufficient to mitigate the COTS
    integration risk:

           •   Mitigation Strategy No. 2005-020-1: Coordinate across Information
               Management and Information Technology teams during the FY 2008
               Program Objectives Memorandum development cycle; and

           •   Mitigation Strategy No. 2005-020-2: Address the risk in the Program
               Objectives Memorandum submissions.



                                         9
Specifically, the mitigation strategy documents provided did not include what
actions must be taken, the level of effort and materials required, the estimated cost
to implement the plan, a proposed schedule showing the proposed start date, the
time phasing of significant risk reduction activities, the completion date, and
relationships to significant activities and milestones as recommended by the
“DoD Risk Management Guide for DoD Acquisition,” Fifth Edition, version 2.0,
June 2003.

Conflicting Priority Values of the Risk. The October 3, 2005, Risk
Management Report identifies COTS integration as Priority Value 3, which,
according to the CITPO Risk Evaluation Matrix discussed on page 7 of this
report, is a medium risk. The program management office comments to the
discussion draft report, February 23, 2006, also identified COTS integration as a
medium risk. However, according to the March 2, 2006, Risk Management
Report, the program management office had raised the risk level of COTS
integration from Priority Value 3 to Priority Value 2 during a November 1, 2005,
in-process review based on the complexity of integrating COTS products in
Block 3. Subsequently, on January 17, 2006, the program management office
raised the COTS integration risk from Priority Value 2 to Priority Value 1 based
on the advice of the CHCS II Project Officer and the CHCS II Engineering Team
regarding cost and complexity concerns with the COTS integration.

According to the CITPO Risk Management Plan, Priority Value 1 risks indicate
the probability of occurrence is assured and the impact to cost, schedule, or
performance is severe. Risks designated as Priority Value 1 require an immediate
change in current project activities in order to reduce or eliminate the risk.
Management action is required within 3 months to begin implementing
mitigations. If the COTS integration risk was increased from Priority Value 2 to
Priority Value 1 on January 17, 2006, as stated in the March 2, 2006, Risk
Management Plan, the AHLTA Program Management Office had until April 17,
2006, to begin implementing mitigations. The Program Management Office did
not provide project activities to reduce or eliminate the COTS integration risk in
its April 7, 2006, response to the draft report.

The program management office’s rationale for increasing the risk to this level is
uncertain. The CITPO definition of a Priority Value 1 is that the risk must be
assured to occur and be of significant impact. However, the program
management office did not provide documentation that supported the occurrence
of this risk is assured. Block 3 of the program had not yet received a Milestone B
decision to enter System Development and Demonstration, the acquisition phase
in which integration risk is reduced. Additionally, during the Systems Integration
portion of the System Development and Demonstration phase, subsystems are
integrated, design details are completed, and system-level risk is reduced.
Finally, we believe that the mitigation strategies identified in the March 3, 2006,
Risk Management Report will not satisfactorily mitigate this risk in the allotted
time frame because Program Objectives Memorandum submissions will not be
delivered to the Comptroller until August 2006, which is past the April 17, 2006,
implementation deadline.




                                     10
Conclusion
    Integration of Block 3 COTS software remains a significant risk for the successful
    completion of AHLTA. Two prior audit reports on other systems have shown
    that the impact to cost is substantial if COTS products require extensive
    unplanned developmental work. Additionally, DoD and industry lessons learned
    state that the impact to DoD systems cost, schedule, and performance is
    significant if the integration of COTS products is more complex than planned.
    The program management office response to the discussion draft report stated that
    COTS integration was a medium risk; however, documentation used to support
    that statement identified that the risk was a Priority Value 1 (high). Additionally,
    the provided information did not support that elevation. Without a mitigation
    strategy that includes such information as the required actions needed to mitigate
    the risk, the level of effort and materials required, the estimated cost, and the
    proposed implementation schedule, the risk of increased program costs as a result
    of the unsuccessful COTS integration is increased as the impact and probability of
    the risk is not reduced.


Management Comments on the Finding and Audit Response
    Management Comments on the Identification of Mitigation Strategies. The
    Assistant Secretary of Defense (Health Affairs) disagreed with the statement that
    the program management office had not identified any mitigation strategies to
    reduce and control risk. According to the Assistant Secretary, the program
    management office did identify several mitigation strategies and recommended
    that the additional COTS-related Risk Management Reports be included in
    Appendix D of our final report. The complete text of the Assistant Secretary is in
    the Management Comments section of this report.

    Audit Response. The audit team focused specifically on Risk Management
    Report ID 2005-020, “COTS Integration,” October 3, 2005, because we
    considered the other risk management reports related to integration of COTS
    products to be properly prioritized. Although the CITPO Program Management
    Office was evaluating mitigation strategies for this risk at the time of our initial
    review in September 2005, they had not developed any.

    In response to the Discussion Draft Report, CITPO provided the audit team with
    an updated Risk Management Report ID 2005-020, March 2, 2006, as well as
    three additional COTS-related risk reports referred to by the Assistant Secretary
    of Defense (Health Affairs). The two mitigation strategies provided in the
    updated Risk Management Report ID 2005-020 were not sufficient to mitigate the
    risk. Specifically, the mitigation strategies did not include what actions must be
    taken, the level of effort and materials required, the estimated cost to implement
    the plan, a proposed schedule showing the proposed start date, the time phasing of
    significant risk reduction activities, the completion date, and relationships to
    significant activities and milestones as recommended by the “DoD Risk
    Management Guide for DoD Acquisition,” Fifth Edition, version 2.0, June 2003.
    Therefore, we recommended that the CITPO Program Management Office


                                          11
develop more robust mitigation strategies for COTS integration risk, Risk
ID 2002-020.

The additional risk management reports included in the CITPO response to the
Discussion Draft Report were not included in the Draft Report because they did
not relate to our review of Risk Management Report ID 2005-020. We updated
the report to clarify the COTS integration risk of our review was Risk
Management Report ID 2005-020. However, at the request of the program
management office, we included the following Risk Management Reports in
Appendix D: CHCS II, “Block III-Lab AP/COTS Interoperability,” Risk ID
2004-080, January 1, 2005; CHCS II, “COTS Integration/Convergence,” Risk ID
2004-085, January 1, 2005; and CHCS II, “COTS Integration,” Risk ID 2004-
086, June 10, 2004.

Management Comments on Contradiction of Risk Management Reports.
The Assistant Secretary of Defense (Health Affairs) disagreed with our analysis
of the October 3, 2005, and March 2, 2006, Risk Management Reports, stating
that he did not see a contradiction in these reports. According to the Assistant
Secretary, the October 3, 2005, Risk Management Report shows the continuing
evaluation of the mitigations strategies which were initiated on September 28,
2005. The current Risk Management Report, March 2, 2006, provides a traceable
timeline of the changes to the Risk Management Report from when the risk was
established.

Audit Response. We accept the explanation the AHLTA Program Management
Office provided. Therefore, we have removed the statement that the March 2,
2006, Risk Management Report contradicts the one provided to the audit team on
October 3, 2005. However, at the time of our initial review in September 2005,
there were no mitigation strategies developed for the risk of the integration of
COTS. Also, the mitigation strategies in the March 2, 2006, Risk Management
Report were inadequate in that they did not contain the recommendations of the
DoD Risk Management Guide for DoD Acquisition. In addition, the program
management office did not provide the significant activities and milestones
recommended by the DoD Risk Management Guide. Recommendation 3
requested that the program office develop more robust mitigation strategies in
accordance with the CITPO Risk Management Plan.

Management Comments on Conflicting Priority Values of the Risk. The
Assistant Secretary of Defense (Health Affairs) stated that “Conflicting Priority
Values of the Risk” is a misleading statement and suggested changing the word
conflicting to adjusting. In addition, he stated that the audit team had apparently
misinterpreted and taken out of context the statement that CITPO had identified
COTS integration as a medium risk and developed corresponding mitigation
strategies. The Assistant Secretary stated the statement was intended to refute the
information contained in the draft report that “the program office had not
identified any mitigation strategies.” Also, he stated that CITPO provided four
COTS risk management reports with risk priorities ranging from medium to high
risk in response to the discussion draft.

Audit Response. We agree that the risk level for Risk Management Report
ID 2005-020, “COTS Integration,” October 3, 2005, has been adjusted. However,


                                    12
    the AHLTA Program Management Office’s written response did not correlate
    with the actual risk report provided. The CITPO response to the discussion draft
    specifically states that COTS integration is a medium-level program risk.
    Therefore, we request the Program Manager, Armed Forces Health Longitudinal
    Technology Application provide documentation that supports the movement of
    COTS integration to higher risk levels as stated in Recommendation 1 of the draft
    report. In addition, we acknowledge that CITPO provided four COTS Risk
    Management Reports with risk priorities ranging from medium to high. However,
    our identification of conflicting risk levels was focused on Risk Management
    Report ID 2005-020, “COTS Integration,” October 3, 2005.

Recommendations
    We recommend that the Program Manager, Armed Forces Health
    Longitudinal Technology Application:

            1. Provide documentation that supports the program management
    office decisions on November 1, 2005, and January 17, 2006, that increased
    the risk priority value for commercial off-the-shelf product integration into
    the Armed Forces Health Longitudinal Technology Application from
    Priority Value 3 (medium) to Priority Value 2 (high), and from Priority
    Value 2 (high) to Priority Value 1 (high).

          2. Provide justification and an implementation plan for the Priority
    Value 1 (high) risk assigned to Block 3.

           3. Develop additional or more robust mitigation strategies that
    address the commercial off-the-shelf product integration Priority Value 1
    (high) risk in accordance with the CITPO Risk Management Plan. These
    mitigation strategies should, at a minimum, contain the recommendations
    included in the “DoD Risk Management Guide for DoD Acquisition, Fifth
    Edition, version 2.0, June 2003.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    concurred stating that the AHLTA Program Manager will provide appropriate
    documentation to support the assignment of risk priorities associated with
    commercial off-the-shelf product integration, provide justification and an
    implementation plan for the Priority Value 1 (high) risk assigned to the AHLTA
    Block 3, and continue to develop additional and more robust mitigation strategies
    that address the commercial off-the-shelf product integration Priority Value 1
    (high) risk.

    Audit Response. Although the Assistant Secretary of Defense (Health Affairs)
    concurred with the recommendations, the comments are partially responsive in
    that a completion date for the planned actions was not provided. Additionally, the
    date for implementation of mitigations for COTS integration has passed. The
    AHLTA Program Management Office did not provide project activities to reduce
    or eliminate the COTS integration risk in its April 7, 2006, response to the draft
    report. Therefore, we request that the Assistant Secretary of Defense (Health
    Affairs) provide the completion date for the planned actions to the final report by
    June 15, 2006.


                                        13
Appendix A. Scope and Methodology
   We reviewed laws, policies, guidance, and documentation dated from January 24,
   1997 through March 2, 2006, related to the system requirements of AHLTA. To
   accomplish our specific objective, we met with officials from the AHLTA
   Program Management Office, the Clinical Information Technology Program
   Office, the Joint Medical Information System Program Executive Office, and
   officials from the Offices of the Assistant Secretary of Defense (Health Affairs),
   the Assistant Secretary of Defense (Networks and Information Integrations/DoD
   Chief Information Officer), the Joint Chiefs of Staff, the Joint Interoperability
   Test Command, the Army Test and Evaluation Command, and the Director of
   Operational Test and Evaluation.

   We began the audit with an overall objective to review budgeting, accounting,
   performance, and user satisfaction of the AHLTA to determine whether the
   system was being implemented to meet cost, schedule, and performance
   requirements. However, during the audit the objective was re-scoped to only
   review system requirements, Clinger-Cohen compliance, and management
   controls. Specifically, we reviewed operational requirements, acquisition
   strategy, and operational and developmental testing. The re-scoping of the audit
   resulted from a meeting held on April 10, 2005, between management from the
   Department of Defense Office of Inspector General and officials from the Office
   of the Assistant Secretary of Defense (Networks and Information Integration/DoD
   Chief Information Officer).

   We performed this audit from January 2005 through March 2006 in accordance
   with generally accepted government auditing standards. We collected the
   information for the audit through meetings, e-mails, and briefings with the
   personnel stated above. We reviewed laws, policies, guidance, and
   documentation for each area we reviewed during the audit. Specifically we
   reviewed:

          •   Public Law 108-287, “Department of Defense Appropriations Act for
              Fiscal Year 2005,” August 5, 2004; Public Law 104-106, “National
              Defense Authorization Act for Fiscal Year 1996,” February 10, 1996;
              Office of Management and Budget Circular A-11, “Preparation and
              Submission of Budget Estimates,” July 12, 1999; Chairman of the
              Joint Chiefs of Staff Instruction 3170.D, “Joint Capabilities Integration
              and Development System,” March 12, 2004; Federal Acquisition
              Regulation Part 39, “Acquisition of Information Technology,” March
              2005; DoD Instruction 5000.2, “Operation of the Defense Acquisition
              System,” May 12, 2003; Defense Acquisition Guidebook, April 27,
              2005; and the Acquisition Community Connection Web site for
              compliance with the Clinger-Cohen requirements.

          •   Chairman of the Joint Chiefs of Staff Instruction 3170.01B,
              “Requirements Generation System,” April 15, 2001; Chairman of the
              Joint Chiefs of Staff Instruction 3170.01C, “Joint Capabilities
              Integration and Development System,” June 24, 2003; CHCS II
              Mission Needs Statement, January 28, 1997; Analysis of Alternatives,


                                       14
           April 28, 1998; Operational Requirement Documents, January 24,
           1997; September 18, 2000; October 30, 2002; and May 4, 2004; Draft
           Capability Development Document for Block 3, January 2005; and
           Director, Operational Test and Evaluation Memorandum for Block 2,
           February 24, 2005, to determine the validity of the AHLTA
           requirements.

       •   DoD Directive 8320.2, “Data Sharing in a Net-Centric Department of
           Defense,” December 2, 2004; CHCS II Test and Evaluation Master
           Plan for Block 2, September 16, 2004; CHCS II System Evaluation
           Reports for Block 1 and Block 2, September 26, 2002, and
           February 18, 2005; and Joint Interoperability Test Certifications for
           Block 1 and Block 2, October 10, 2003, and March 28, 2005, for
           potential testing issues or problems.

       •   The CHCS II Acquisition Strategies for Block 2 and Block 3,
           September 16, 2003, and April 12, 2005; Acquisition Program
           Baselines, January 27, 2003; November 17, 2003; and May 27, 2005;
           Acquisition Decision Memorandums for Block 1 and Block 2,
           January 28, 1997; February 20, 1998; December 23, 1998; January 28,
           2003; June 13, 2003; November 17, 2003; and May 27, 2005; and
           CHCS II Defense Acquisition Executive Summary Reports, Third
           Quarter FY 2004 through First Quarter FY 2006 for potential
           schedule, performance, and cost issues.

       •   The CITPO Risk Management Plan, September 20, 2004; the CHCS II
           Risk Management Plan, September 29, 2003; the CHCS II Risk
           Management Database, October 6, 2005; the CITPO Lessons Learned
           Database and Reports, September 23, 2005; the CHCS II Performance
           Monitoring Program, September 27, 2005; the AHLTA Active Risk
           Management Report, October 3, 2005; and the AHLTA Risk
           Management Report, March 2, 2006, for an understanding of the
           mitigation techniques being emphasized by the AHLTA Program
           Manager to gain greater control over potential schedule delays and
           increases in program costs.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Use of Technical Assistance. Two computer engineers from the Software
Engineering Branch, Technical Assessment Division, for Investigative Policy and
Oversight, DoD Office of Inspector General, assisted in the audit. The computer
engineers assisted the audit team by determining that software and hardware
problems encountered by AHLTA during the full deployment of Block 1
functionalities were not COTS-related.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD approach to the business transformation
high-risk area.



                                   15
Prior Coverage
      During the last 7 years, GAO and the DoD IG have issued four reports discussing
      the Composite Health Care System II.

GAO
      GAO Report No. GAO-04-691R, “Post-Hearing Questions on VA/DoD Health
      Data Exchange,” May 14, 2004

      GAO Report No. GAO-02-345, “Greater Use of Best Practices Can Reduce Risks
      in Acquiring Defense Health Care System,” September 2002

DoD IG
      DoD IG Report No. D-2001-038, “Allegations Relating to the Procurement of a
      Report Module for the Composite Health Care System II,” January 29, 2001

      DoD IG Report No. D-1999-068, “Acquisition Management of the Composite
      Health Care System II Automated Information System,” January 21, 1999




                                         16
Appendix B. Armed Forces Health Longitudinal
            Technology Application Acquisition
            Strategy
     The table below represents the AHLTA acquisition strategy. The AHLTA
     system’s acquisition is divided into three blocks, which are divided into multiple
     releases.




                    Current AHLTA Functional Block Strategy
         Block 1                           Block 2                     Block 3
 Encounter Documentation       Release 1                   Release 1

 Order Entry and Results          Spectacle Request           Pharmacy
 Retrieval                        Transmission System II
                                                           Release 2
 Encounter Coding Support      Release 2
                                                              Laboratory
 Consult Tracking                 Dental Charting2 and
                                  Documentation               Anatomic Pathology
 Alerts and Reminders
                                                           Release 3
    Automated Clinical1
    Practice Guidelines                                       Radiology
 Role-Based Security                                       Release 43
 Health Data Security                                         Inpatient Charting and
                                                              Documentation
 Health Data Dictionary
                                                              Occupational Health
 Master Patient Index                                         Surveillance

 Ad Hoc Query Ability


     1
     Moved from Block 2, Release 2.
     2
     Moved from Block 2, Release 1.
     3
     Result of Block 4 being merged into Block 3.




                                              17
Appendix C. Armed Forces Health Longitudinal
            Technology Application Acquisition
            Program Baselines
         The chart below shows the AHLTA Acquisition Program Baseline transition.
         The May 27, 2005, approved Acquisition Program Baseline is a result of a breach
         in the AHLTA program’s schedule. The breach in the schedule was a direct result
         of performance problems during the full deployment of Block 1.

                            AHLTA-Approved Acquisition Program Baselines
                             Acquisition Program             Acquisition Program       Baselined Acquisition
                                  Baseline                    Baseline Change 1         Program Baseline
                                 January 27, 2003              November 17, 2003             May 27, 2005
                             Objective      Threshold        Objective     Threshold    Objective       Threshold
                                                               No Changes Unless          No Changes Unless
                                                                    Specified                   Specified

Milestone (MS) 0            JAN 1997      APR 1997
MS 1                        MAY 1998      AUG 1998
Block 1 Developmental       JUN 2000      SEP 2000
Test and Evaluation
Block 1 Operational Test    APR 2002      JUL 2002
and Evaluation
Block 1 MS C Limited
Deployment                  NOV 2002      MAY 2003
Block 1 Full Rate
Production Decision         JUL 2003      JAN 2004
Block 2 System
Requirements Review         NOV 2000      FEB 2001
Block 2 MS B                NOV 2002      MAY 2003
Block 2 Operational Test
Readiness Review 3          APR 2003      OCT 2003           NOV 2003    MAY 2004              DELETED
Block 2 Release 1
Deployment Decision
Review (DDR)                                                                           MAR 2005   SEP 2005
Block 2 MS C                JUL 2003      JAN 2004           MAR 2004    SEP 2004             DELETED
Block 2 Full DDR                                                                       JUN 2006   DEC 2006
Block 3 MS A                NOV 2002      MAY 2003
Block 3 MS B                JAN 2004      JUL 2004                                     MAR 2006      SEP 2006
Block 3 MS C                JAN 2004      JUL 2004                                     SEP 2007      MAR 2008
Block 3 Release 1 DDR                                                                  MAR 2008      SEP 2008
Block 3 Release 2 DDR                                                                  MAR 2008      SEP 2008
Block 3 Release 3 DDR                                                                  DEC 2008      JUN 2009
Block 3 Full DDR                                                                       SEP 2009      MAR 2010
Initial Operating
Capability                  MAR 2004      SEP 2004
Full Operating Capability   SEP 2007      SEP 2008                                     SEP 2011   SEP 2012
Block 4 MS A                JUL 2003      JAN 2004                                            DELETED
Block 4 MS B                SEP 2004      MAR 2005                                            DELETED
Block 4 MS C                SEP 2004      MAR 2005                                            DELETED




                                                        18
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports
19
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
20
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
21
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
22
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
23
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
24
     Appendix D. Armed Forces Health Longitudinal Technology Application
                 Risk Management Reports (cont’d)
25
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Assistant Secretary of Defense (Health Affairs)
      Joint Medical Information System Program Executive Office
        Program Manager, Clinical Information Technology Program Office
        Program Manager, Armed Forces Health Longitudinal Technology Application
Assistant Secretary of Defense (Networks and Information Integration/DoD Chief
   Information Officer)
Director, Program Analysis and Evaluation

Department of the Army
Surgeon General of the Army
Auditor General, Department of the Army

Department of the Navy
Surgeon General of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Surgeon General of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Office of the Assistant Secretary of Defense
(Health Affairs) Comments




                        29
30
31
Final Report
 Reference




Page 9,
paragraph 3




Page 9,
paragraph 4




               32
     Final Report
      Reference




     Page 10,
     paragraph 2




     Page 10,
     paragraph 2




33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Jacqueline L. Wicecarver
Sean A. Davis
Patrick E. McHale
Richard A. Pinnock
Susan H. Bachle
Dea M. Algeo
Joseph S. Dobish
Anh Tran
Minh Q. Tran
Meredith H. Johnson
